<html>
<title> - NOMINATIONS OF STEVEN CHEALANDER TO BE A MEMBER OF THE NATIONAL TRANSPORTATION SAFETY BOARD AND CHARLES DORKEY III TO BE A MEMBER OF THE ADVISORY BOARD OF THE SAINT LAWRENCE SEAWAY DEVELOPMENT CORPORATION</title>
<body><pre>[Senate Hearing 109-933]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-933
 
                  NOMINATIONS OF STEVEN CHEALANDER TO 
                      BE A MEMBER OF THE NATIONAL 
 TRANSPORTATION SAFETY BOARD AND CHARLES DORKEY III TO BE A MEMBER OF 
                    THE ADVISORY BOARD OF THE SAINT 
                      LAWRENCE SEAWAY DEVELOPMENT 
                              CORPORATION

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                            DECEMBER 5, 2006

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
34-711                      WASHINGTON : 2007
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                     TED STEVENS, Alaska, Chairman
JOHN McCAIN, Arizona                 DANIEL K. INOUYE, Hawaii, Co-
CONRAD BURNS, Montana                    Chairman
TRENT LOTT, Mississippi              JOHN D. ROCKEFELLER IV, West 
KAY BAILEY HUTCHISON, Texas              Virginia
OLYMPIA J. SNOWE, Maine              JOHN F. KERRY, Massachusetts
GORDON H. SMITH, Oregon              BYRON L. DORGAN, North Dakota
JOHN ENSIGN, Nevada                  BARBARA BOXER, California
GEORGE ALLEN, Virginia               BILL NELSON, Florida
JOHN E. SUNUNU, New Hampshire        MARIA CANTWELL, Washington
JIM DeMINT, South Carolina           FRANK R. LAUTENBERG, New Jersey
DAVID VITTER, Louisiana              E. BENJAMIN NELSON, Nebraska
                                     MARK PRYOR, Arkansas
             Lisa J. Sutherland, Republican Staff Director
        Christine Drager Kurth, Republican Deputy Staff Director
             Kenneth R. Nahigian, Republican Chief Counsel
   Margaret L. Cummisky, Democratic Staff Director and Chief Counsel
   Samuel E. Whitehorn, Democratic Deputy Staff Director and General 
                                Counsel
             Lila Harper Helms, Democratic Policy Director


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on December 5, 2006.................................     1
Statement of Senator Inouye......................................    11
    Prepared statement...........................................     2
Statement of Senator Stevens.....................................     1

                               Witnesses

Chealander, Steven R., Nominee to be a Member of the National 
  Transportation Safety Board....................................     2
    Prepared statement...........................................     3
    Biographical information.....................................     5
Dorkey III, Charles E., Nominee to be a Member of the Advisory 
  Board of the Saint Lawrence Seaway Development Corporation.....     7
    Prepared statement...........................................     8
    Biographical information.....................................     9

                                Appendix

Hutchison, Hon. Kay Bailey, U.S. Senator from Texas, prepared 
  statement......................................................    15
Snowe, Hon. Olympia J., U.S. Senator from Maine, prepared 
  statement......................................................    15
Response to written questions submitted by Hon. Hillary Rodham 
  Clinton to Charles E. Dorkey III...............................    17
Response to written questions submitted by Hon. Daniel K. Inouye 
  to:
    Steven R. Chealander.........................................    16
    Charles E. Dorkey III........................................    17


    NOMINATIONS OF STEVEN CHEALANDER TO BE A MEMBER OF THE NATIONAL 
 TRANSPORTATION SAFETY BOARD AND CHARLES DORKEY III TO BE A MEMBER OF 
                    THE ADVISORY BOARD OF THE SAINT 
                      LAWRENCE SEAWAY DEVELOPMENT 
                              CORPORATION

                              ----------                              


                       TUESDAY, DECEMBER 5, 2006

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:10 a.m. in 
room SR-253, Russell Senate Office Building, Hon. Ted Stevens, 
Chairman of the Committee, presiding.

            OPENING STATEMENT OF HON. TED STEVENS, 
                    U.S. SENATOR FROM ALASKA

    The Chairman. Good morning. Senator Inouye sent word he's 
stuck in traffic and asked us to proceed with the hearing, and 
I'm delighted to have that clearance from him.
    This probably is the last meeting of this Committee during 
this Congress, and this morning we will hear from nominees to 
serve on the National Transportation Safety Board and the Saint 
Lawrence Seaway Development Corporation. We welcome you. Other 
Members are all represented here by staff and they welcome your 
willingness to serve us at this time.
    Steven Chealander has been nominated to be a Member of the 
National Transportation Safety Board. The investigations into 
the recent school bus accident in Alabama, the plane crash in 
Lexington, Kentucky, and I can tell you about the one that I 
personally was involved in and survived. The other was the 
Alaska Airlines crash that my great friend, former head of the 
BIA, Morris Thompson, his wife Thelma and members of his family 
were killed. We have seen the work of the NTSB, and I think 
it's one of the fine agencies of our Federal Government. I look 
forward to Mr. Chealander's comments about what he thinks can 
be done to improve this vital agency.
    Senator Hutchison has submitted a statement for the record 
in support of your nomination, Mr. Chealander, and it will be 
included in the record.
    Mr. Charles Dorkey has been nominated to be a Member of the 
Advisory Board of the Saint Lawrence Seaway Development 
Corporation. Mr. Dorkey has been an active and dedicated 
resident of the State of New York, serving in positions with 
the Hudson River Park Trust, the Empire State Development 
Corporation, and the New York Park and Conservation 
Association, among other things.
    I have personally gone through both of the FBI 
investigations of your qualifications and your background, and 
I'm very pleased to say that we're happy to have you join the 
Federal Government with such distinguished careers behind you. 
I understand some of the members of your family are here. I 
hope that you will introduce your family or friends who are 
here with you today before you make your statement.
    Senator Inouye's statement will appear in the record at 
this place if he gets here. If he doesn't get here, it will be 
inserted in the record.
    [The prepared statement of Senator Inouye follows:]

 Prepared Statement of Hon. Daniel K. Inouye, U.S. Senator from Hawaii
    I would like to welcome Mr. Chealander and Mr. Dorkey for appearing 
before the Senate Commerce Committee.
    The work of the National Transportation Safety Board (NTSB) is 
vital to the safety and integrity of the Nation's transportation 
infrastructure. Having the full five-member Board in place is crucial 
for addressing new challenges that arise regularly, and for continuing 
the high-level investigative work for which the NTSB is known.
    The Saint Lawrence Seaway remains one of the critical port systems 
for the U.S. transportation system, and provides a critical link to 
mid-America. Mr. Dorkey, as a nominee to serve on the Saint Lawrence 
Seaway Development Corporation (SLSDC), I am hopeful that, if 
confirmed, your background and experience will assist with the work 
that is being done to ensure the flow of commerce on this vital 
infrastructure.
    I thank you both for your commitment to public service and I look 
forward to hearing your views as we consider your nominations.

    The Chairman. Let me first call on you, Mr. Chealander. You 
are a resident of Texas, I understand, to be a Member of the 
National Transportation Safety Board. I'd be pleased if you 
would introduce your family or friends.

 STATEMENT OF STEVEN R. CHEALANDER, NOMINEE TO BE A MEMBER OF 
            THE NATIONAL TRANSPORTATION SAFETY BOARD

    Mr. Chealander. Yes, and good morning, and thank you, Mr. 
Chairman. I am pleased and honored to appear before you today 
as you consider my nomination to be a Member of the National 
Transportation Safety Board. I am grateful to President Bush 
for this nomination, and especially for his confidence in my 
ability to continue to serve our great nation in this vitally 
important position, should I be confirmed.
    Good morning, Mr. Inouye.
    I would also like to recognize and thank Chairman Rosenker 
and the other current and former board members, many of whom 
are present here today, for their support. If confirmed, I 
intend to work diligently to contribute to the Safety Board's 
mission of preventing transportation accidents and maintaining 
the trust and confidence of the traveling public in our 
transportation system.
    I would also like to thank Senator Kay Bailey Hutchison 
from my home State of Texas for her kind introduction, support, 
and for her leadership on this Committee.
    As a career military officer, I would also like to add my 
personal thanks for the record you, Senator Stevens, Senator 
Inouye, and the distinguished Members of this Committee, for 
your military and government service to our country. I look 
fondly back on my own active military tours, and appreciate 
others who answered the call to public service, particularly 
those who began their careers with service in the military and 
then accepted a further call to public service in the Congress.
    And with your permission I would like to introduce my long-
time best friend and the wind beneath my wings, my wife, 
Rebecca. I am so glad that she was able to be here today with 
me, as she has walked alongside me in countless other 
professional endeavors over our 34 years of marriage. For those 
of you who don't know, we were in Washington many years ago 
when I had the privilege of serving as military aide to 
President Reagan. We are honored to have the opportunity to 
serve the country as a team once more. My wife, Rebecca.
    The Chairman. Good morning, Rebecca.
    Mr. Chealander. As I'm sure you will agree, America's 
extensive transportation industry is one of our most important 
economic sectors and can easily be characterized as the 
lifeblood of our economy and a national treasure. Therefore, it 
is essential that we nurture that sector by ensuring the safe 
movement of people and products. It was with that idea in mind 
that Congress saw fit to establish the National Transportation 
Safety Board with the goal of enhancing transportation safety.
    If confirmed, I pledge to you my commitment to making a 
meaningful contribution to the NTSB and helping it perform the 
role Congress intended. While working diligently to maintain 
the independence of the Board, which has remained the desire of 
Congress since the Board's creation, I also pledge that I will 
work to ensure the Board and this Committee have a cooperative, 
productive, and active working relationship, one which results 
in enhanced safety for the American traveling public.
    I am humbled by the prospect of serving our country as a 
board member of the NTSB. I believe there is no higher honor or 
greater opportunity for one who has spent two careers in which 
safety has been the highest priority, than to hold a position 
of trust in an organization dedicated to safety of the American 
public.
    I look forward, if confirmed, to making contributions 
toward safety of our transportation system and thereby the 
public's confidence in that transportation system. Through 
those contributions, I hope to help strengthen an industry 
vital to America's overall economic and national security. 
Also, I restate my pledge to you, Mr. Chairman, and each Member 
of this Committee, of my unfaltering commitment to the safety 
of our Nation's traveling public.
    Sir, I look forward to answering your questions.
    [The prepared statement and biographical information of Mr. 
Chealander follow:]

 Prepared Statement of Steven R. Chealander, Nominee To Be a Member of 
                the National Transportation Safety Board

    Good morning and thank you, Mr. Chairman, Mr. Co-Chairman and 
distinguished Members of the Committee. I am pleased and honored to 
appear before you today as you consider my nomination to be a Member of 
the National Transportation Safety Board (NTSB). I am grateful to 
President Bush for this nomination and especially for his confidence in 
my ability to continue to serve our great nation in this vitally 
important position, should I be confirmed. I would also like to 
recognize and thank Chairman Rosenker and the other current and former 
Board Members, many of whom are present here today, for their support. 
If confirmed, I intend to work diligently to contribute to the Safety 
Board's mission of preventing transportation accidents and maintaining 
the trust and confidence of the traveling public in our transportation 
system.
    I would also like to thank Senator Kay Bailey Hutchison from my 
home State of Texas for her kind introduction, support and for her 
leadership on this Committee. As a career military officer I would also 
like to add my personal thanks for the record, to you, Senator Stevens, 
Senator Inouye and the distinguished Members of this Committee for 
their military and government service to our country. I look fondly 
back on my own active duty military tours and appreciate others who 
answered a call to public service, particularly those who began their 
careers with service in the military, and then accepted a further call 
to public service in Congress.
    With your permission I would like to introduce my long-time best 
friend and the wind beneath my wings, my wife, Rebecca. I am so glad 
that she was able to be here with me today, as she has walked alongside 
me in countless other professional endeavors over our 34 years of 
marriage. For those who don't know, we were in Washington many years 
ago when I had the privilege of serving as the Military Aide to 
President Reagan. We are honored to have the opportunity to serve the 
country as a team once more.
    As I am sure you will agree, America's extensive transportation 
industry is one of our most important economic sectors and can easily 
be characterized as the lifeblood of our economy and a national 
treasure. Therefore, it is essential that we nurture that sector by 
ensuring the safe movement of people and products. It was with that 
idea in mind that Congress saw fit to establish the National 
Transportation Safety Board with the goal of enhancing transportation 
safety. If confirmed, I pledge to you my commitment to making a 
meaningful contribution to the NTSB and to helping it perform the role 
Congress intended. While working diligently to maintain the 
independence of the Board, which has remained the desire of Congress 
since the Board's creation, I also pledge that I will work to ensure 
that the Board and this Committee have a cooperative, productive, and 
active working relationship which results in enhanced safety for the 
American traveling public.
    For nearly forty years, the National Transportation Safety Board 
has been at the forefront of transportation safety issues and has been 
the conscience of America's transportation network. The NTSB is 
renowned as our Nation's premier accident investigation agency, but is 
also recognized as the most authoritative, independent safety body in 
the world. That reputation, and by extension that credibility, is the 
product of a team of safety professionals committed to excellence in 
its conduct of unbiased investigations into transportation accidents. 
It is also a result of the foresight exhibited by Congress to ensure 
the organizational independence of the NTSB when it reasoned ``no 
Federal agency can properly perform such [investigatory] functions 
unless it is totally separate and independent from any other . . . 
agency of the United States.'' The dedicated men and women who make up 
the staff of the NTSB have made tremendous strides in making each one 
of our Nation's transportation modes safer and thus stronger.
    I am humbled by the prospect of serving our country as a board 
member of the NTSB. I believe there is no higher honor or greater 
opportunity for one who has spent two careers in which safety has been 
of the highest priority, than to hold a position of trust in an 
organization dedicated to the safety of the American public. I am 
energized by the possibility, if confirmed, of being part of the 
leadership of this incredibly competent team of safety experts and 
advocates. I believe that my diverse operational and management 
experiences in aviation, both military and commercial, give me an 
excellent background with which to serve as a board member on the NTSB.
    Mr. Chairman, my background includes a combination of experience in 
aviation, aviation management, accident and incident investigation, 
teaching human factors and its relationship to transportation safety, 
and leading pilots in safe flight operations. I have been an active 
aviator for almost 33 years now, and know full well that safety in 
flight operations, and in all modes of transportation operations, is in 
some significant part a product of recommendations and lessons learned 
passed on from investigative bodies such as the NTSB.
    I look forward, if confirmed, to making contributions toward the 
safety of our transportation system, and thereby the public's 
confidence in that transportation system. Through those contributions, 
I hope to help strengthen an industry vital to America's overall 
economic and national security. Also, I restate my pledge to you, Mr. 
Chairman, and each Member of this Committee, of my unfaltering 
commitment to the safety of our Nation's traveling public.
    Sir, I look forward to answering any questions.
                                 ______
                                 
                      A. BIOGRAPHICAL INFORMATION

    1. Name (Include any former names or nicknames used): Steven R. 
Chealander.
    2. Position to which Nominated: Board Member, NTSB.
    3. Date of Nomination: September 21, 2006.
    4. Address (List current place of residence and office addresses):

        Residence: information not released to the public.

        Office: American Airlines Flight Academy, DFW Airport, TX 
        75261.

    5. Date and Place of Birth: November 14, 1946, Los Angeles, CA.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).

        Wife: Rebecca Chealander, not employed.
        Daughter: Ann Lapinsky, 29 years old.
        Daughter: Lael Chealander, 27 years old.

    7. List all college and graduate degrees. Provide year and school 
attended: Bachelor of Science, 1973, University of Southern California.
    8. List all management-level jobs held and any non-managerial jobs 
that relate to the position for which you are nominated.

        Manager, Flight Operations Efficiency, American Airlines, June, 
        2003-present.

        Manager, Flight Safety--Internal Evaluation and Compliance, 
        American Airlines, January-June 2003.

        F-16 Tactical Fighter Squadron Commander, USAF, 1989-1991.

        F-5 Tactical Fighter Squadron Commander, USAF, 1988-1989.

    9. List any advisory, consultative, honorary or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last 5 years: None.
    10. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational or other institution within the last 5 years: Director on 
the Board of Directors, Thunderbirds Alumni Association, November 2005-
present.
    11. Please list each membership you have had during the past 10 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age or handicap: Member of Trophy Club Country Club, 
Trophy Club, TX, April 1, 2005-present; (Trophy Club has no restrictive 
membership policies).
    12. Have you ever been a candidate for public office? No.
    13. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years: None.
    14. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals and any other special recognition 
for outstanding service or achievements.

        Defense Superior Service Medal, July 1988.
        Distinguished Flying Cross, 1984.
        Air Medal, 1984.

    15. Please list each book, article, column, or publication you have 
authored, individually or with others, and any speeches that you have 
given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed: None.
    16. Please identify each instance in which you have testified 
orally or in writing before Congress in a nongovernmental capacity and 
specify the subject matter of each testimony: None.

                   B. POTENTIAL CONFLICTS OF INTEREST

    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers: None.
    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation or practice with any business, 
association or other organization during your appointment? If so, 
please explain.
    No, I am presently employed by American Airlines, and, if confirmed 
as a Member of the Board of the NTSB, will retire after more than 15 
years of service. I have no commitment or agreement of any type to 
maintain employment, affiliation or practice with American Airlines or 
any other business, association or organization during my appointment 
as a Board Member.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.
    All potential conflicts of interest have been identified on my 
Public Financial Disclosure Report (SF 278) and have been discussed in 
my Ethics Agreement letter, dated September 22, 2006, which I have 
previously provided to the Designated Agency Ethics Official (DAEO) of 
the National Transportation Safety Board. The potential sources of 
conflict are summarized as follows; vested American Airlines (AMR) 
Stock Options, Preferred Stock in Pacific Gas and Electric (PGE) and 
General Electric Company (GE). Additionally, pursuant to my service 
with American Airlines, upon retirement, I will be entitled to the 
provision, by American Airlines, of payment for medical insurance 
benefits for my spouse and myself. Finally, my spouse and I will be 
entitled to flight benefits with American Airlines, which will involve 
flying stand-by
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 5 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated: None.
    5. Describe any activity during the past 5 years in which you have 
been engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy: None.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.
    If I am confirmed as a Member of the Board, within 90 days of the 
date of that confirmation, I will divest my preferred stock in GE and 
PGE and will exercise my vested stock options in American Airlines and, 
in turn, will divest the stock in American Airlines. In view of the 
continuing relationship that I will have with American Airlines because 
of my entitlement to the payment of insurance benefits and flight 
benefits, as I have indicated in my ethics agreement, I will recuse 
myself from investigations or other matters before the Board in which 
American Airlines is or represents a party.

                            C. LEGAL MATTERS

    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? No.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority of any Federal, 
State, county, or municipal entity, other than for a minor traffic 
offense? If so, please explain: DUI 1972, California Highway Patrol, 
Los Angeles County Municipal Court, Malibu, California. The final 
disposition was a $182 fine.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? No.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, please explain: (See Question 2, above).
    5. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination: None.
    6. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion or any 
other basis? No.

                     D. RELATIONSHIP WITH COMMITTEE

    1. Will you ensure that your department/agency complies with 
deadlines for information set by Congressional committees?
    Yes. The importance of a sound relationship between the National 
Transportation Safety Board and Congress cannot be overstated, and I 
will do my utmost to ensure the Safety Board is responsive to Congress 
and those committees with which the Safety Board routinely has a 
relationship.
    2. Will you ensure that your department/agency does whatever it can 
to protect Congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures?
    Yes, to the best of my ability, and always when during the 
performance of my duties as a Member of the Safety Board I participate 
in management activities affecting the rights and benefits of Safety 
Board employees.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee?
    Yes, If I am confirmed, I will do my part to ensure that the Safety 
Board provides that cooperation and support to the best of my ability. 
The Safety Board, as the first Federal agency on scene in many 
instances, and with the charge from Congress to independently determine 
the probable cause of accidents and make meaningful recommendations to 
avoid further accidents, will have transportation-related expertise 
residing in its investigators, scientists and engineers. Congress will 
often need to access this expertise as it contemplates legislation. I 
fully recognize that Congress needs the cooperation and support of the 
Safety Board as Congress seeks to fashion meaningful remedies from 
Safety Board findings and recommendations. Again, I will do my best to 
provide that support.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so?
    Yes. It is my opinion that such appearances and testimony will be a 
significant part of my responsibilities as a Board Member. Also, in my 
opinion, an open and thorough dialogue between the Safety Board and 
Congress is essential in advancing transportation safety in the United 
States, and around the globe.

    The Chairman. Thank you very much.
    Mr. Dorkey, I would be happy to have your comments, and 
introduce your family if you will.

 STATEMENT OF CHARLES E. DORKEY III, NOMINEE TO BE A MEMBER OF 
                THE ADVISORY BOARD OF THE SAINT 
            LAWRENCE SEAWAY DEVELOPMENT CORPORATION

    Mr. Dorkey. Yes, sir. Before proceeding I'd like to 
introduce my girlfriend, Carolyn Pilkington, who is right 
behind me here, Senator. Thank you.
    The Chairman. Good morning.
    Mr. Dorkey. Chairman Stevens, Co-Chairman Inouye, and 
Members of the Committee, it is an honor for me to appear 
before you today as President Bush's nominee to serve as a 
member of the Advisory Board of the Saint Lawrence Seaway 
Development Corporation. If confirmed, I look forward to 
working closely with the Committee on issues related to the 
vital work performed by the Seaway Corporation.
    I am humbled to be asked to serve as a public member of 
this board. As a lawyer in private practice, I believe it is 
essential for one to give back to society and to assist in the 
administration of government. I am flattered and pleased that I 
will be able to do so for this wholly-owned government 
corporation. My past experience, I respectfully submit, has 
prepared me for this board.
    For the last 10 years, I have served as a board member of 
the New York State Economic Development Corporation, and know 
how essential it is to help the economy of New York's north 
country, where the Seaway has its operations. For the last 4 
years, I have served as Chairman of the Hudson River Park 
Trust, and have gotten to learn how important waterways are for 
business and recreational interests of our citizens.
    As someone who has worked as a public member of government 
entities and corporations, I also know how important it is that 
there be communications with all stakeholders, that decisions 
affecting people and interests be principled, explained, and 
transparent, and that the public interest always comes first.
    And, as a partner in a U.S.-Canadian law firm, I have 
learned a great deal about the society and culture of our 
important neighbor to the north, and believe that this 
experience will give me a deep and sensitive understanding of 
shared cross-border issues.
    In closing, let me assure you and all Members of Congress 
that I will do everything in my power and within my ability to 
ensure that the Saint Lawrence Seaway Development Corporation 
continues to operate in a cost-effective and transparent 
manner, and that it continues to serve as an environmentally 
responsible impetus to trade and the economic well-being of not 
only the Great Lakes region it directly serves, but the entire 
United States.
    Thank you, Senators.
    [The prepared statement and biographical information of Mr. 
Dorkey follow:]

Prepared Statement of Charles E. Dorkey III, Nominee To Be a Member of 
      the Advisory Board of the Saint Lawrence Seaway Development 
                              Corporation

    Chairman Stevens, Co-Chairman Inouye and Members of the Committee, 
it is an honor for me to appear before you today as President Bush's 
nominee to serve as a Member of the Advisory Board at the Saint 
Lawrence Seaway Development Corporation. If confirmed, I look forward 
to working closely with the Committee on issues related to the vital 
work performed by the Seaway Corporation.
    I am humbled to be asked to serve as a public member of this board. 
As a lawyer in private practice, I believe that it is essential for one 
to give back to society and to assist in the administration of 
government. I am flattered and pleased that I will be able to do so for 
this wholly-owned government corporation. My past experience has 
prepared me for this board.
    For the last 10 years, I have served as a board member of the New 
York State Economic Development Corporation and know how essential it 
is to help the economy of New York's North Country--where the Seaway 
has its operations. For the last 4 years, I have served as Chairman of 
the Hudson River Park Trust and have gotten to learn how important 
waterways are for business and recreational interests of our citizens. 
As someone who has worked as a public member of government entities and 
corporations, I know how important it is that there be communication 
with all stakeholders, that decisions affecting people and interests be 
principled, explained and transparent and that the public interest 
always comes first.
    As a partner in a U.S.-Canadian law firm, I have learned a great 
deal about the society and culture about our important neighbor to the 
north and believe that this experience will give me a deep and 
sensitive understanding of shared cross-border issues.
    In closing, let me assure you that I will do everything in my power 
and within my ability to ensure that the Saint Lawrence Seaway 
Development Corporation continues to operate in a cost-effective and 
transparent manner and that it continues to serve as an 
environmentally-responsible impetus to trade and the economic well-
being of not only to the Great Lakes region it directly serves, but the 
entire United States.
                                 ______
                                 
                      A. BIOGRAPHICAL INFORMATION

    1. Name (Include any former names or nicknames used): Charles E. 
Dorkey III, nickname ``Trip.''
    2. Position to which Nominated: Member of Advisory Board of St. 
Lawrence Seaway Development Corporation.
    3. Date of Nomination: November 13, 2006.
    4. Address (List current place of residence and office addresses):

        Residence: information not released to the public.

        Office: Torys LLP, 237 Park Avenue, 20th Floor New York, New 
        York 10017.

    5. Date and Place of Birth: June 23, 1948, Philadelphia, 
Pennsylvania.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).

        Charles E. Dorkey IV (29).
        John H. Dorkey (24).
        Margaret L. Dorkey (22).

    7. List all college and graduate degrees. provide year and school 
attended.

        J.D., 1973, University of Pennsylvania Law School.
        A.B. (cum laude), 1970, Dartmouth College.

    8. List all management-level jobs held and any non-managerial jobs 
that relate to the position for which you are nominated: Managing 
Partner, Torys LLP, Chairman, Hudson River Park Trust.
    9. List any advisory, consultative, honorary or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last 5 years: See resume. *
    10. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational or other institution within the last 5 years: See resume. *
---------------------------------------------------------------------------
    * The information referred to has been retained in Committee files.
---------------------------------------------------------------------------
    11. Please list each membership you have bad during the past 10 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age or handicap.

    Fraternal:

        Theta Delta Chi, 1967-present.
        Holland Lodge No. 8F. & A.M., 2006-present.
        The Pilgrims, 2005-present.
        The Pennsylvania Society, 1981(?)-present.

        (Both Holland Lodge and Theta Delta Chi are male fraternities).

    Private Clubs:

        Dartmouth (Yale) Club, 1975-present.
        New York Athletic Club, 1992-present.
        University Club (Admission Pending).
        Penn Club, 1988-mid-1990s.
        Heights Casino, 1994-late-1990s.

    Political:

        Committeeman, New York County Republican Party, 1993-1995.

    12. Have you ever been a candidate for public office? No.
    13. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years.
    See schedule A13 A. * To the best of my research, Schedule A13 
reflects my political contributions. In order to be complete, I caused 
a search to be made not only of my and my firm's check registers but 
also of various websites.
    14. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals and any other special recognition 
for outstanding service or achievements: See resume. *
    15. Please list each book, article, column, or publication you have 
authored, individually or with others, and any speeches that you have 
given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed: None.
    16. Please identify each instance in which you have testified 
orally or in writing before Congress in a non-governmental capacity and 
specify the subject matter of each testimony: None.

                   B. POTENTIAL CONFLICTS OF INTEREST

    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers: I will continue as a partner of Torys LLP.
    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation or practice with any business, 
association or other organization during your appointment? If so, 
please explain: I will continue as a partner of Torys LLP.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.
    To my knowledge, none. Please refer to the Deputy General Counsel, 
Department of Transportation opinion letter. *
---------------------------------------------------------------------------
    * The information referred to has been retained in Committee files.
---------------------------------------------------------------------------
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 5 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated: To my knowledge, none.
    5. Describe any activity during the past 5 years in which you have 
been engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy.
    As I understand the question, none. In my work in various non-
paying government positions, I have acted to affect the administration 
and execution of law and public policy.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.
    Generally, the way to resolve a potential conflict of interest 
would be to recuse oneself from the matter at issue. I would be guided 
by the advice of the senior ethics official, Department of 
Transportation. Please refer to the Deputy General Counsel, Department 
of Transportation opinion letter. *

                            C. LEGAL MATTERS

    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? If so, please explain.
    In 1983, my adversary complained to the First Department 
Disciplinary Committee that I had spoken to her outside the presence of 
her counsel. After an investigation, the matter was dismissed as 
groundless.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority of any Federal, 
State, county, or municipal entity, other than for a minor traffic 
offense? It so, please explain.
    None after the age of 18. I have twice been taken into custody, 
once when I was 15 for mischief and once when I was 17 for shoplifting. 
On neither occasion was I charged and on both I was released in the 
custody of my parents.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? No.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? No.
    5. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination: Nothing unfavorable.
    6. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion or any 
other basis? No.

                     D. RELATIONSHIP WITH COMMITTEE

    1. Will you ensure that your department/agency complies with 
deadlines for information set by Congressional committees? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect Congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.

    The Chairman. Thank you very much.
    Senator Inouye?

              STATEMENT OF HON. DANIEL K. INOUYE, 
                    U.S. SENATOR FROM HAWAII

    Senator Inouye. Mr. Chairman, I thank you very much.
    Mr. Chealander, I'm impressed by your aviation background. 
As you are well aware, when the NTSB was originally formed, it 
was on the mission of investigating aviation accidents. 
However, since then accidents and deaths occurring in other 
modes of transportation have more than doubled. In fact, 
they're much more than aviation. And yet we find that your 
agency has more than twice the number of investigators for 
aviation than for all other modes combined. Do you believe that 
there should be some consideration of changing the 
authorization law so that other modes of transportation would 
be given equal consideration?
    Mr. Chealander. Well, based on my limited knowledge of how 
it works, I realize that aviation is the major part of the 
investigating body. NTSB was chartered to investigate all 
aviation accidents, and other modes of transportation.
    And I will commit to you, as I said in my opening 
statement, Senator, that I will do everything in my power to 
learn about the other modes of transportation and determine 
whether or not down the line the authorization should be 
changed. I'm not in a position to make that statement at this 
time.
    Senator Inouye. I thank you. No other questions.
    The Chairman. Well, thank you.
    Mr. Chealander, I think that the Board ought to go further, 
go out ahead of the curve and see what we're doing as far as 
safety is concerned. Do you, as a Member of the Board, have any 
feelings about that? You understand what I'm saying?
    Mr. Chealander. No, sir.
    The Chairman. Well, the Board traditionally just 
investigates accidents after they happen.
    Mr. Chealander. Yes.
    The Chairman. I have a feeling that in some instances 
particularly a man with your background, and other members of 
the Board, could sort of oversee a lot of other things and 
maybe come up with some ideas about prevention. To my knowledge 
it has not in the past, but I think it's within the scope of 
your charter, so to speak, of the Board.
    Mr. Chealander. I absolutely agree, and I believe the NTSB 
at the present time has what they call their ``most wanted'' 
list that they come out with each year. Those are preventative-
type measures. I just happen to have, I pulled it up on the 
Internet and I got a copy of that myself, and there are several 
issues on the ``most wanted'' list that are preventative-type 
activities.
    But I do agree with you very much that we should be looking 
at preventative safety measures. That's part of the education 
process. I believe very strongly in education and training in 
aviation in particular, and all modes of transportation, but I 
do agree that preventative measures when you're talking safety 
are very, very important.
    The Chairman. When I went out and met with members of the 
board following the Alaska Airlines crash in which my two 
friends and their family were killed, we had the indication 
then that it quite possibly was the jackscrew that was in the 
tail of the aircraft, that gave it the ability to have its 
ailerons move. I think they came up with some great 
recommendations about future maintenance in order to prevent 
that type of accident.
    But I just wonder if the Board does in fact involve itself 
in looking into the basic concepts of maintenance and safety 
measures that the airlines should take. You've been with 
American Airlines, as I understand it.
    Mr. Chealander. Yes, sir.
    The Chairman. Maybe I shouldn't even ask you, but does that 
board have a policy of looking into safety and prevention?
    Mr. Chealander. The NTSB?
    The Chairman. Your American Airlines board.
    Mr. Chealander. Yes, we do, and we follow very closely the 
recommendations of the NTSB in forming our policies and 
procedures to go forward. But yes, safety and prevention is a 
very large part of what we do at American Airlines, and all the 
airlines. All the airlines are very concerned with safety and 
what we can do to prevent any type of mishap or accident.
    The Chairman. Well, you're looking at the two Senators who 
have flown more than any Senators in history, and we both 
believe that God doesn't charge against our time on Earth the 
time we spend in the air. But at the same time we're very 
conscious of the problems of aviation and the aging of our 
aircraft. I think that the Board ought to reach out ahead and 
really look into the scope of prevention in the American 
airlines.
    Mr. Dorkey, the Saint Lawrence Seaway Development 
Corporation really has some monstrous responsibilities with 
regard to access to the Great Lakes. Are you familiar with the 
history of that organization?
    Mr. Dorkey. Yes, sir. Well, I'm not sure I'm as familiar as 
I will be, but yes, I've studied the history and the importance 
it is to the economy of the Great Lakes region.
    The Chairman. I think, you know, it is basically a board to 
develop, but it also has some safety factors, too. Have you 
studied their methods of trying to assure safety in the 
operation of those systems they've got, the locks and the 
access through the Saint Lawrence down into the Great Lakes?
    Mr. Dorkey. Yes, Senator. I think it's a very important 
part of the responsibility of the Corporation, for the safety 
of the ships and the safety of the homeland in terms of overall 
security, to make sure the locks are well-maintained.
    The Chairman. Thank you.
    Senator, do you have any questions?
    Senator Inouye. I'd just like to commend you for taking on 
this public service. Public service is never easy, and both of 
you, I congratulate you.
    Mr. Dorkey. Thank you, Senator.
    Mr. Chealander. Thank you, Senator.
    The Chairman. We congratulate you. Men with your background 
and obvious ability, from the records you've had in the past, 
we're delighted to have you join these two organizations.
    I want to state for the record we do have some, I hate to 
use the word ``routine,'' but the basic nominations for 
commissions and advancement in the Coast Guard and others, as I 
understand it, and it would be my request that we discharge the 
Committee from those so they can get to the calendar before the 
end of the year.
    Senator Inouye. I so move.
    The Chairman. That will be the policy of the Committee, 
unless we hear from the Committee Members through their staffs 
that there is any objection to any of those. To my knowledge 
there's no objection to any of them.
    We thank you very much, and thank you for your families. We 
will also do our best to get your two nominations discharged so 
that we can consider them before we adjourn. Thank you.
    Mr. Dorkey. Thank you, Chairman.
    Mr. Chealander. Thank you, Mr. Chairman, Mr. Co-Chairman.
    [Whereupon, at 10:25 a.m., the Committee was adjourned.]

                            A P P E N D I X

  Prepared Statement of Hon. Kay Bailey Hutchison, U.S. Senator from 
                                 Texas

    Mr. Chairman, it gives me great pleasure to introduce Steven 
Chealander before this Committee to be a Member of the National 
Transportation Safety Board.
    Today, Mr. Chealander is accompanied by his wife, Rebecca 
Chealander. He is also supported by his daughters, Ann Lapinsky and 
Lael Chealander.
    Throughout his twenty-two years of military service in the United 
States Air Force where he achieved the rank of Colonel, Mr. Chealander 
demonstrated proven leadership skills.
    Mr. Chealander has been awarded the Defense Superior Service Medal, 
the Legion of Merit, the Distinguished Flying Cross, and the Air Medal.
    A two-time Squadron Commander of 36 fighter aircraft squadrons, 
fighter pilots, and associated support personnel, Mr. Chealander also 
managed the process of reconstituting the United States Air Force 
Thunderbirds following the 1982 tragic accident where they were 
practicing the four plane diamond loop. As manager, Mr. Chealander was 
involved in the safety investigation of the accident, the transitioning 
to the F-16 aircraft, as well as developed new training procedures for 
the Thunderbirds.
    Mr. Chealander is clearly no stranger to safety. He served as the 
Manager of American Airlines' Flight Safety--Internal Evaluation and 
Compliance, where he worked with the FAA, labor unions, and 
representatives from all departments within the airline performing 
regulatory safety audits and investigations.
    He is currently the Manager of American Airline's Flight Operations 
Efficiency, a position he has held since 2003.
    Mr. Chairman, Mr. Chealander possesses in-depth knowledge of safety 
as it relates to aviation, and he has expressed that he is willing to 
work very closely with Congress on all safety issues.
    Mr. Chairman, I urge this Committee to act favorably on Mr. 
Chealander's nomination, and expedite his confirmation to be a Board 
member on the National Transportation Safety Board.
                                 ______
                                 
  Prepared Statement of Hon. Olympia J. Snowe, U.S. Senator from Maine

    Thank you, Mr. Chairman for holding this hearing today to help the 
Members of the Committee get to know the nominees. I would like to 
welcome the nominees to the Committee.
    One issue that is, in my opinion, very significant is 
transportation security. The National Transportation Safety Board is an 
entity that serves a vital role in protecting travelers across all 
modes of transportation, and is relentlessly vigilant in seeking out 
means to improve the safety of America's traveling public. Its 
continuous efforts ensure safety improvements of aviation, rail, and 
waterborne transportation are to be applauded, and their exhaustive 
examinations or tragic incidents permit us to discuss methods to 
prevent such incidents from happening again. From events as 
earthshaking as the 9/11 attacks on the World Trade Center Towers to 
the urgent weather warnings to motorists facing winter storms, the 
National Transportation Safety Board has a role to play in protecting 
our citizens, one that is too often overlooked.
    There can be no ``acceptable'' level of injuries or fatalities. The 
very positive news that transportation deaths declined in 2005 is sadly 
balanced by the realization that we need to do more.
    On another front, I would like to take the opportunity to 
congratulate Mr. Charles Dorkey, a gentleman who has a sterling 
reputation for serving his community, preserving critical historic 
landmarks and working diligently to provide recreational opportunities 
for his fellow New Yorkers. As a prominent graduate of Dartmouth 
College, a successful and skilled lawyer, a strong proponent of 
community development, and an advocate for public lands and clean 
water, Mr. Dorkey is a well-rounded and knowledgeable individual who 
will work with our Canadian neighbors to guarantee the continued 
utilization and protection of the Saint Lawrence Seaway.
    In his new role as a member of the Saint Lawrence Seaway 
Development Corporation, I feel he will perform admirably in this 
position, bringing his skills to bear to aid in balancing the integral 
commercial access provided by the Saint Lawrence, while being mindful 
of the delicate environmental impacts that this major waterway has on 
the Northeast United States.
    I am encouraged by the qualifications of both nominees, and look 
forward to working with them in their new positions.
    Thank you, Mr. Chairman.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Daniel K. Inouye to 
                          Steven R. Chealander

    Question 1. You have an impressive safety background within the 
aviation industry. Do you have any specific areas that you would like 
to see the NTSB focus on if you are appointed to the Board?
    Answer. If confirmed, I will join the National Transportation 
Safety Board with an open mind and no predetermined agenda. I have 
served over 33 years in the aviation community, first as a military 
pilot in the Air Force and then as a civilian airline pilot--throughout 
that time, safety was of the highest priority. If I come to the Safety 
Board with any predisposition, it is with a focus on, and absolute 
belief in, the importance of proactive safety programs in 
transportation operations. I come to the NTSB with a ``safety first'' 
mindset.
    With that background in mind, I would characterize my greatest 
interest, and where I might encourage the NTSB to focus, to be 
operational safety programs, for example, pilot orientation and 
training programs (such as new-hire training programs) and the methods 
by which companies instill a culture of safety throughout the 
organization. I am also very interested in how the NTSB, through 
forums, conferences, symposia, and safety studies, might serve a role 
in encouraging proactive and preventative activity on the part of 
operators in all modes of transportation.
    Lastly, I would like to assure the Committee that my background as 
an airline pilot in the most recent 15 years of my aviation career will 
not interfere with my objectivity as I view each accident investigation 
that staff brings before the Board.

    Question 2. Do you have any experience with other modes of 
transportation?
    Answer. Even though I have a predominantly aviation background, I 
pledge to the Committee my commitment to diligently studying the issues 
in the other transportation modes, actively familiarizing myself with 
operational aspects of those other modes of transportation, and 
carefully reviewing the facts and issues on each investigation report 
brought before the Board, regardless of mode.
    I also understand that my most significant contributions to the 
NTSB will not necessarily involve the operational experience I bring to 
the Board, but more importantly, the experience I have with how 
organizations manage effective programs such as an operational risk 
management program, safety training, loss prevention, and very 
important, how leadership emphasizes a ``safety first'' culture, 
articulated from the top down. I hope to bring this experience to 
discussions with NTSB staff and deliberations with my colleagues, in 
all modes of transportation accident investigation.

    Question 3. Given the importance of ensuring that safety is made 
the highest priority in all of our modes of transportation, it is 
absolutely critical that the NTSB function in a completely independent 
manner and stays above the political fray. What qualities will you 
bring to the board that will aid in the effectiveness of its mission?
    Answer. I fully understand the importance of the NTSB's 
independence in conducting accident investigations. That independence 
has given the NTSB the credibility and reputation it now holds around 
the world. I see from my preliminary research that Congress ensured 
this independence by separating the NTSB from the Department of 
Transportation in 1975. I believe the judgment of Congress was correct 
in taking that step.
    My experience with independent safety investigations began in the 
Air Force, when I was associated with the tragic accident in which four 
Air Force Thunderbirds pilots were killed in a training accident near 
Nellis Air Force Base in 1982. I was then a member of that flying team, 
and learned full well not to jump to conclusions, not to make premature 
statements, and the importance of an investigative body maintaining its 
professional objectivity throughout the course of an accident safety 
investigation. I firmly believe that independence, objectivity, and 
precision are paramount attributes of effective accident 
investigations. Thus, the qualities that I bring to the Board that will 
help me contribute to the effectiveness of the NTSB team and its 
mission include more than my experiences with flying operations and 
transportation enterprises. They also include my personal experiences 
with the tragic consequences of things going wrong--and the importance 
of a proper safety investigation in identifying the cause.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Daniel K. Inouye to 
                         Charles E. Dorkey III

    Question 1. What will be your priority mission at the Saint 
Lawrence Seaway Development Corporation?
    Answer. If confirmed, my primary mission will be to bring my 
experience and judgment as a public board member to further the mission 
of the SLSDC, which I understand to be to operate and maintain the U.S. 
infrastructure and waters of the Seaway while performing trade 
development activities focused on economic development for the Great 
Lakes and St. Lawrence Seaway system.

    Question 2. Do you believe there are specific ways to enhance the 
trade development functions of the Great Lakes/St. Lawrence Seaway 
System?
    Answer. If confirmed, I will commit myself to learning how best to 
enhance the trade development function consistent with the views of all 
stakeholders.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Hillary Rodham Clinton 
                        to Charles E. Dorkey III

    Question 1. The U.S. Army Corps of Engineers has been examining the 
feasibility of spending billions of dollars to physically expand the 
Seaway in its Great Lakes Navigation Study. I strongly believe that 
such a plan would waste taxpayer dollars and pose an unacceptable 
threat to the health of the St. Lawrence River. I have been pushing the 
Corps to complete the current phase of the study and to hold public 
meetings in New York and throughout the Great Lakes before any 
additional study is initiated. Do you support public hearings on the 
Great Lakes Navigation Study and what are your views about Seaway 
expansion?
    Answer. As a matter of good government, I believe that it is 
important to solicit the views of all stakeholders in making decisions. 
Accordingly, if confirmed, I would support public hearings on the Great 
Lakes Navigation Study. On the merits of the issue, I will promise to 
study carefully the issues of Seaway expansion and seek to understand 
the balance between any possible benefit to the public, and the cost 
and potential burden to the public.

    Question 2. The SLSDC has traditionally worked primarily with the 
shipping industry, yet its regulations and programs have a direct 
impact on the communities along the St. Lawrence River. I believe that 
SLSDC should better involve local communities in SLSDC decisionmaking. 
Will you pledge to work to increase the transparency of the Seaway's 
decisionmaking and programs?
    Answer. As I stated in my testimony, ``I have worked as a public 
member of government entities and corporations, and know how important 
it is that there be communication with all stakeholders, that decisions 
affecting people and interests be principled, explained, and 
transparent, and that the public interest always comes first.'' If 
confirmed as a board member of the SLSDC, I pledge to apply these basic 
principles.

    Question 3. Ballast water discharge from ships transiting the 
Seaway is the principle vector for invasive species introductions into 
the Great Lakes. Would you support swift development and implementation 
of tough ballast water regulations to reduce this threat to the ecology 
of the Great Lakes?
    Answer. Introduction of invasive species through ballast water is a 
serious problem that needs to be resolved. I believe the SLSDC should 
take a pro-active role in solving this problem, and, if confirmed, I 
pledge to work with Congress, the Administration and the shipping 
industry to address this critical issue.

    Question 4. It looks as though the proposal to privatize the Seaway 
by creating a ``bi-national authority'' to manage the Seaway is again 
being discussed. Do you support privatizing the Seaway system?
    Answer. At this point, I do not have enough information to either 
support or oppose privatization of the Seaway system. The privatization 
of a transportation system is a significant undertaking that would 
require careful study and analysis after input from all relevant 
stakeholders. If confirmed, I pledge to work with all stakeholders to 
determine the effects of privatization proposals.

                                  <all>

</pre></body></html>
